\

/
April 12, 2021

S'-'nI
o 20-21
Supreme Court of the United States

Anthony G. Bryant

Supreme Court, U.S
FILED

APR 1 9 2021

Petitioner

office of THE Cl

Fpk-

V

Executive Offices for United States Attorneys

Respondent

On Petition for a Writ of Certiorari to the United States

Court of Appeals for the Fourth Circuit

Petition for a writ of certiorari

;

i..

Mailing Address

Anthony G. Bryant

2123 Courtland Avenue

RECEIVED
APR 2 3 2021

mvanm

Charleston SC 29403

RECEIVED
MAY 1 1 2021

gs&gaasKig

◄

\

/
II. Table of Contents

I.

Questions Presented
Table of Contents

III.

Table of Authorities

IV.

Petition for Writ of Certiorari

V.

Opinion Below

VI.

Constitutional Provisions Involved

VII.

Statement of Case

VIII.

Reason for Granting the Writ

IX.

Conclusion

*•

■■V

I.

Question Presented

Did the Executive Office for United States Attorneys violate petitioners' constitutional rights involved
under First, Fourth, Eighth, and Fourteenth Amendments in error under Clearly Established Law Test the
defense use regarding Qualified Immunity under FCC 230 passed by Congress providing for Corporation
to have Indemnification from Petitioners third party thought and speech by the use of Corporate search
engines, video post, text, email, and fax during Order 589 of the Supreme Court of the United States
during COVID 19 under Violent Crime Control and Law Enforcement Act of 1994, Homeland Security Act
of 2002 or US Patriot Act, Administrative Procedure Act of 1946 ?

\

1:

III Table of Authorities

Cases

Taylor vTaintor

Pierson v Ray

Bivens v Six Unknown Named Agents

Harlow v Fitzgerald

Tyson Timbs v State of Indiana

Flowers v State of Mississippi

United States v Brandon Mayfield

Statutes

28 USC 1257

Constitutional Provisions

United States Constitution Amendment I

United States Constitution Amendment IV

United States Constitution Amendment VIII

United States Constitution Amendment XIV

\
/

IV. Petition for Writ of Certiorari
I Anthony G Bryant defined by Executive Offices for United States Attorney via FOIA/Privacy Act as"
Unknown in violation of the clearly established law test under FCC 230 Administering and Enforcing
internet and social media platforms supported by a quasi-Judicial body appointed by Congressional
District the Public Service Commission of South Carolina concerning a rate increase during COVID19 by
Dominion Energy December 2020 and January 2021 redacted this Petitioners physical address coupled
with a public comment to Housing and Urban Development in which I used my search engine via a
Corporation with identification from third party thought and speech regarding a need for more "
Economic Solution Grants for those defined as At Risk Homeless, Homeless, and Chronically Homeless as
a result this Petitioner makes this Writ of Certiorari Pro SE Litigant to the Supreme Court of the United
States as defined by the South Carolina Department of Commerce and HUD without a physical address
In Forma Pauperis adjoining many during this COVID 19 crisis without physical address.

\
/

I
VI. Constitutional Provisions Involved
United States Constitution Amendment I - Congress shall make no law respecting and establishment of
religion or prohibiting the free exercise thereof or abridging the freedom of speech or the press or the
right of the people to peaceably assemble and to petition the government for redress of grievances.

United States Constitution Amendment IV-The right of the people to be secure in their houses, papers,
and effects against unreasonable searches and seizures shall not be violated and no warrant shall be
issued but upon probable cause supported by oath or affirmation or describing the place to be searched
and the person or things to be seized
United States Constitution Amendment VIII - Excessive Bail shall not be required nor excessive fines
imposed nor cruel and unusual punishment.
United States Constitution Amendment IV All persons born or Naturalized in the United States and
Subject to the jurisdiction thereof, are citizens of the United States and of the State wherein they reside.
No state shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States nor shall any state deprive a person life, liberty, or property, without due process of law:
nor deny to any person within its jurisdiction the equal protection of the laws.

J

1
V. Opinion Below

The Decision by the United States Court of Appeals for the Fourth Circuit Bryant v Executive Offices for
United States Attorneys under Fed R 35 on the Petition for Rehearing and Rehearing En Banc No Judge
Request a Poll in the affirmative on March 29, 2021 entered at the direction of Judge Agee, Judge Wynn,
Judge Diaz and appeal from United States District Court of South Carolina Judge Margret Seymore 2:20
CV 03037 MBS MGB.

VI. Jurisdiction

Mr. Anthony G. Bryant appeal to the United States Court of Appeals for the Fourth Circuit dismissed on
April 6, 2021. Mr. Anthony G. Bryant invokes this Court Jurisdiction under 28 USC 1257 this petition for
writ of certiorari within 90 days ninety days of the United States Court of Appeals for the Fourth Circuit
ruling.

VII. Statement of Case

I Anthony G.

Bryant submit my statement of case to the Supreme Court of the United States do to

violation under the test of " clearly established law " and the " Qualified Immunity doctrine established
by the Supreme

Court during the Civil Rights movement similar to this summer social unrest in the case

Pierson v Ray 1967 and later to modern standard by the court as a result of the ruling Harlow v
Fitzgerald in the 1982 the case that usurp protections under Bivens v Six Unknown Named Agents 1971.
TU/j

oetitionor thought and soeer.h was expressed via a FOIA and Privacy Act request to the Executive

Office for US Attorneys di o to the petitioner thought and speech expressed to the Justice Department as
instructed within its print cc bilateral filing a federal complaint to the Justice Department regarding
I
recipients for federal financir jI assistance such 18. 000 local police, Sheriff's Offices, Jails, Prisons, Courts,
State Law and Federal Law Enfi orcement Agencies regarding any Title VI violations such as bookings,
holdings, wrongful arrest, emert ’ency services, interrogations, false police reports, confinement, and
excessive force after receiving No tice from the Internal Revenue Service substantiating claim of Identity
Theft within it print collateral expre ssed " a person can be wrongfully accused of a crime they did not
commit' with my social security numLier exposed on a false police report and latter a warrant served for
the year 1989 in the year 2013 a year pr.}or to substantiating Identity Theft under Violent Crime Control
S
i

and Law Enforcement Act of 1994 under Tvtle XXX Protection of Privacy of Information in State Motor
Vehicle Record Section Prohibition on release and use of certain state motor vehicle records and in
December 2020 and January 2021 petitioner public comment to a Quasi-Judicial Body appointed by
Congressional District named Public Service Commis,ion 0f South Carolina concerning a rate increase
requested by Dominion Energy during COVID 19 Orderly sUpreme court of the United States denying
petitioner a right to petition this Commission ruling for r.te jncrease under the First Amendment
unfortunately the thought and speech was redacted unde pCC section 230 governing the internet

J,

VI. Statement of Case

And social media platforms with Housing and Urban Development and South Carolina Department of
Commerce public comment deeming petitioner without physical address under criteria of At Risk
Homeless, Homeless, and Chronically Homeless and later the Executive Office for US Attorneys deeming
my FOIA / Privacy Act request by a person " Unknown" and required a Notary Public in which the
Petitioner became after Identity Theft was substantiated by the Internal Revenue Service as a result the
Executive Office for the US Attorneys FIOA/Privacy request was made from my search engine and email
similar to all my request to Justice Department components in which there is no central file of all
components under Violent Crime Control and Law Enforcement Act of 1994, Homeland Security Act of
2002 or US Patriot Act and/or Administrative Procedure Act of 1946 were petitioner used his search
engine, video post, and emails to answer Notice, participated in Public Hearing Procedures, prior to
Effective Dates for Final Rulings by Federal Agencies under FCC section 230 governing the internet and
social media on the Governments Federal Registry in which a petitioner has filed within the United
States District Court of South Carolina under Rule 73 authority of the US Magistrate via Public Access to
Court Electronic Records regarding Judicial Review of Federal Agencies decision citing " Clearly
Established Law Test" and Qualified Immunity Doctrine under Rule 64 seizure of person or property or
both by state and federal public officials that have violated the very laws they are charged to uphold
with the wrong name, wrong federal identifiers, and no physical address all thought and speech
expressed can be construed by the Federal Courts as an " Conspiracy" defined as a agreement between
two or more people to have a meeting of the minds to break a particular law. It requires no action just
and expressed thought by another person agreed upon by another person Congress decided that this
kind of Speech is not only regrettable it is also indictable and punishable as a crime under Homeland
Security Act of 2002 or US Patriot Act and Violent Crime Control and Law Enforcement Act of 1994 under
Clearly Established Law Test in error and Qualified Immunity within sections of the Death Penalty.

■ t

/

VIII. Reason for Granting Writ of Certiorari

The Reason the Supreme Court of the United States should grant this writ of certiorari based upon
United States District Court of South Carolina and United States Court of Appeals deeming under the "
Clearly Established Law Test and Qualified Immunity Doctrine overlooking Judicial Objectivity based
upon the thought and speech expressed by the petitioner in dissent to Homeland Security Act of 2002 or
US Patriot Act regarding the arrest of Brandon Mayfield and in the year 2010 I requested via my search
engine, email, and fax machine the 360 page Inspector General Report regarding United States v
Brandon Mayfield as former member of the Charleston County Board of Zoning Appeals from 1999 to
2006 I voted on land use provision under South Carolina Planning and Enabling Act in particular land use
relationships with contiguous properties within Counties near former and present Military Based During

' v; -

that time I overtly expressed my concern of government overreach of civil right and civil liberties
regarding the passage of the US Patriot Act or Homeland Security Act of 2002 in addition to a false police
report on behalf of the South Carolina Department of Education and United States Department of

■.j;

Education placing my person on the Charleston County Judiciary Website In error as a Domestic Abuser
under Clearly Established Law test error and " Qualified Immunity Doctrine" under Protecting Children
in the 21st Century Title I Protecting Children Title II Deleting Online Predators, Children's List broker
under sections 303 Administration and Enforcement from the IRS to the United States Marshalls as well
as section 304 Actions by States from South Carolina Attorney General Domestic Abuse to Human
Trafficking Task Forces and/or DEA Narcotics and Dangerous Drugs Information System and
Investigative Reporting Filing System Tyson Timbs v State of Indiana Taylor v Taintor under violation of
the Fourth and Eighth Amendment do to Clearly Established Law Test or Qualified Immunity Doctrine
based upon Historical delay and gradual or ail deliberate from passage of the Fourteenth Amendment to
Flowers v State of Mississippi began a legal variance of all deliberate speed since the Encyclopedic

v
Jk

/

VIII. Reason for Granting Writ of Certiorari

Notes on the State of Virginia written in 1781 by Thomas Jefferson answering concerns of the French
Government in funding the Revolutionary War within Queries Administration of Justice and Legal
Description laying the premise for error within Clearly Established Law Test eight years after during the
Constitutional Convention when James Madison expressed Government should protect the peopled: the
people from themselves: the Government; and guard against transient impressions exempting from
Clearly Established Law Test from the term of Chief Justice John Jay to Chief Justice John B Taney
Qualified Immunity Doctrine from the First Right Denied Congress to the Dred Scott Case ? In addition to
Chief Justice Salmon P Case to Chief Justice Morrison Waite terms during the period of the Civil War,
Field Order No 15, passages of the 13th, 14th, 15th amendments to US v Reese and US v Cruikshank
concerning Clearly Established Law Test and Qualified Immunity doctrine. Moreover, the terms of Chief
Justice Melville Fuller ruling in Plessey v Ferguson did this court established Clearly Established Law Test
or Qualified Immunity Doctrine? Or did Chief Justice Earl Warren and Chief Justice Warren Berger
establish Modern Clearly Established Law Test with rulings of Pierson v Ray 1967, Bivens v Six Unknown
Named Agents, and or Harlow v Fitzgerald 1982? Finally did Chief Justice William Rehnquist that was
confirmed under the Senate Judiciary Led by Senator James Eastland of Mississippi as an Associate
Justice prior to as a Clerk of the Supreme Court of the United States to Associate Justice Jackson during
the Chief Justice Vinson Term of Brown v Board of Education when he advised Associate Justice not to
vote in the affirmative of the Brown Case later as an associate Justice ruled establishing " Clearly
Established Law Test and Qualified Immunity In Harlow v Fitzgerald 1982.

r.

/

IX. Conclusion

I Anthony G Bryant submit this writ of certiorari to the Supreme Court of the United States as a protest
regarding FCC 230 governing the Internet and social media platforms for many during COVID 19 under
Housing and Urban Development during COIVID 19 was deemed without physical address prior to the
Pandemic deemed as At Risk Homeless, Homeless, and Chronically Homeless with a 1% percent chance
of being heard and thoughts and speech expressed reduced to Clearly Established Law Test and
Qualified Immunity were many without access to the internet and broadband during the pandemic with
limited use of search engines, video post, texting, and emails while Corporations are indemnified to
make profits at the expense of the Public Interest while the Executive Offices of the US Attorney and
Supreme Court of the United States received CARES Act and another Emergency Funding the Petitioner
can only afford a limited amount of copies to be in compliant to the number of copies to the Supreme
Court of the United States .

failing Address

nthony G Bryant

2123 Courtland Avenue

Charleston SC 29403

